         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Special Report
Review of Alleged Conflicts of Interest
Involving a Legal Services Contractor for
the Yucca Mountain Project License
Application




DOE/IG-0792                            April 2008
RESULTS OF FACT FINDING REVIEW

Presented below is our analysis of the issues raised by the delegation, as well as our
observations regarding the Department's documentation of key decision points in
awarding the 2007 legal services contract.

                                Representation of Utilities

The Department selected Morgan Lewis, a firm which represented utilities in the spent
nuclear fuel litigation against the Government. In so doing, the Department accepted a
firm with a conflict of interest. However, the agency's selection of Morgan Lewis was
inconsistent with the Department's position in 1999, when it excluded firms with this
conflict from participating in a similar contract. The Department's view on this change
was that in 2007, its needs could only be met by firms with extensive Nuclear Regulatory
Commission licensing expertise, and it determined that "any alternative law firm with
[this expertise] would have similar potential conflict issues."

In accordance with applicable regulations, the Department provided a waiver of the
conflict of interest, and it incorporated a mitigation plan into the contract. Agency
officials determined that the plan would mitigate any legal ethics conflict and/or any
organizational conflict of interest to the "maximum extent practicable."

Overall, the 2007 procurement for legal services appeared to follow the conflicts of
interest requirements set forth in the Federal Acquisition Regulations, Department of
Energy Acquisition Regulations, and District of Columbia Bar Rules of Professional
Conduct. We also found that the firm had implemented the mitigation plan in accordance
with the contract requirements.

                            Representation of Nuclear Industry

Morgan Lewis disclosed work for NEI. Specifically, Morgan Lewis disclosed to the
Department that it had periodically advised the NEI on "matters involving the Nuclear
Waste Policy Act, spent nuclear fuel, high-level waste, and other related matters;
however, such work over the past twelve months [preceding the contract award] has not
related factually, commercially or legally to the Yucca Mountain Repository licensing."
Independent of the firm's disclosure, our review showed that the firm terminated its
lobbying activities for NEI in 2002, five years prior to the award of the current contract.

                                     2001 Report on
                           Safety Conscious Work Environment

The law firm's 2001 work was critical of the safety conscious work environment in
existence at Yucca Mountain at that time. Morgan Lewis' report included
recommendations to further strengthen the program. In our discussions with Department
officials, they stated that the quality assurance program for the Yucca Mountain Program
had evolved significantly since 2001. We noted that the current program had been



                                             2
recently reviewed by an independent party and was found to be consistent with standard
nuclear industry practices. Further, the officials asserted that Morgan Lewis would not
be reviewing its 2001 work under the scope of the 2007 contract.

                         Documentation of Key Decision Points

We found, in conducting our review, that the Department had not fully developed a
written record memorializing the key decision points underlying its procurement strategy
and selection process. Given the controversial nature of the Yucca Mountain Project; the
history of allegations concerning conflicts of interest; and, the likely public scrutiny of
any Yucca Mountain Project legal services contract, we found the absence of such
documentation disturbing. Had a full written record of the Department's decision process
been developed, it would have been of great assistance in conducting this review. Of far
greater importance, it may well have anticipated many of the concerns that have been
raised regarding the contract with Morgan Lewis.

The absence of a clear record relating to the following matters was of particular concern:

   •   Agency officials did not document their rationale for the apparent shift in
       procurement strategy and approach to addressing conflicts of interest relative to
       the Department's 1999 position. In our view, the procurement record should have
       addressed this important question.

   •   The Department did not document its comparative analysis of the proposals which
       formed the basis for selecting Morgan Lewis in 2007. A comparative analysis
       would have assessed statements of qualifications and potential conflicts of
       interest. This was especially important because our review showed that one of the
       firms invited to submit statements of qualifications did not have a conflict of
       interest relating to the spent nuclear fuel litigation. Officials stated that the firm
       in question did not have sufficient available resources (attorneys with NRC
       licensing experience) to apply to the contract. We noted that the record on this
       matter was not documented.

In addition, Morgan Lewis disclosed other activities relating to its work for NEI.
Department officials held follow-up discussions with Morgan Lewis to more fully
develop the disclosures. As a result of these discussions, the firm modified its disclosures
prior to the award of the contract and provided additional clarification of its work on
behalf of NEI. However, the procurement file did not contain a "trail" of the
Department's review of the disclosures. Such a document would have allowed us to
determine if the Department adequately addressed whether the disclosed issues presented
a conflict of interest and, if so, whether they had been effectively mitigated.

Department officials stated that no such documentation was required and asserted that the
decision to award the 2007 contract to Morgan Lewis was based on its need for legal
services from a firm with extensive NRC licensing expertise and that this need was
documented in the procurement file. Department officials also informed us that while


                                             3
they did not prepare a comparative analysis of law firms, there was extensive
consideration in the selection of the law firm. Finally, officials stated that there was no
indication of an inaccuracy in Morgan Lewis' disclosures of its work on behalf of NEI.

In our view, the public interest would have been better served had the Department done
more to document the key decision points relating to this procurement.

A detailed discussion of our general observations, as well as the issues raised by the
delegation is included in the body of the attached report.
Attachment
cc:   Acting Deputy Secretary
      Under Secretary of Energy
      Director, Office of Civilian Radioactive Waste Management
      General Counsel
      Chief of Staff




                                              4
SPECIAL REPORT ON REVIEW OF ALLEGED CONFLICTS OF
INTEREST INVOLVING A LEGAL SERVICES CONTRACTOR FOR
THE YUCCA MOUNTAIN PROJECT LICENSE APPLICATION

TABLE OF
CONTENTS


   Conflicts of Interest

   Background .................................................................................................................1

   Procurement Strategy..................................................................................................1

   Conflict of Interest Regulations and Rules .................................................................5

   Application of Requirements ......................................................................................6

   Implementation of Mitigation Plan.............................................................................7

   Work for the Nuclear Energy Institute........................................................................8

   Prior Work – Safety Conscious Work Environment...................................................9


   Appendices

   1. Objective, Scope, and Methodology...................................................................12

   2. Prior Reports .......................................................................................................14
                              CONFLICTS OF INTEREST

BACKGROUND

Under the Nuclear Waste Policy Act, the Department of Energy (Department) is
responsible for providing a repository for high-level radioactive waste and spent nuclear
fuel. As part of this effort, the Department is required to prepare and submit a license
application to the Nuclear Regulatory Commission (NRC) for the construction and
operation of the high-level waste repository at Yucca Mountain. Further, the Act
mandated a contractual relationship between commercial utilities and the Department
whereby the utilities pay for the cost of spent nuclear fuel disposal while the Federal
Government provides disposal services in a manner protective of the public health and
environment.

In September 2007, the Department awarded a legal services contract to a law firm,
Morgan, Lewis, and Bockius LLP (Morgan Lewis), in connection with the Yucca
Mountain Project. Morgan Lewis is to assist in preparing the license application to be
submitted to the NRC. The Department awarded the contract using an informal process
that was "other than competitive" to evaluate different law firms, rather than the more
formalized competitive process set forth in the Competition in Contracting Act. Prior to
the award of the contract, the Department notified Congress in April 2007 of its intent to
follow the informal process. The notification was pursuant to 41 U.S.C. Section
253(c)(7), and included the Department's determination and findings that proceeding in
this manner was necessary in the public interest.

As part of the pre-award requirements, Morgan Lewis disclosed potential conflicts of
interest due to its representation of commercial utilities in the spent nuclear fuel
litigation. The litigation related to cases filed by utilities against the Government for its
partial breach of contract regarding the disposal of spent nuclear fuel. While many of
these cases had been resolved, others were still pending resolution.

PROCUREMENT STRATEGY

A primary concern raised by the State of Nevada's congressional delegation was that the
2007 procurement did not follow the conflict of interest restrictions contained in the
Department's 1999 legal services procurement for the Yucca Mountain Project. To
address this concern, we examined the conflicts of interest strategy used by the
Department in awarding the three legal services contracts since 1999.

We found that for each of these three contracts, the Department used a distinct approach
to address potential conflicts of interest, specifically with regards to those firms that had
represented commercial utilities in the spent nuclear fuel litigation against the
Government. In 1999, the Department excluded firms with such conflicts from
participating in the procurement. In 2003, the Department invited firms, some of which
represented utilities in the spent nuclear fuel litigation, to participate in the procurement.
Ultimately, the agency decided to award the contract to a firm that did not represent
utilities in the spent nuclear fuel litigation, based, in part, on conflict of interest concerns.
In 2007, the Department hired Morgan Lewis, despite the firm's representation of utilities
in the spent nuclear fuel litigation.

                                      1999 Procurement

The Department issued a request for proposal in 1999 for a legal services contractor for
the Yucca Mountain Project. After conducting market research, which showed that there
were several large firms with litigation and NRC experience available to perform the
work, the Department issued its solicitation. The solicitation included the following
"special organizational conflict of interest" provision:

        A firm will be deemed to have organizational conflicts of interest if the
        firm has represented in the last five years, or is currently representing
        parties in litigation, either administrative or judicial, against the
        Department of Energy involving the Standard Contract for Disposal of
        Spent Nuclear Fuel.

The Department concluded that responses from firms with these conflicts would be
considered "non-responsive and eliminated from competition." The Department
memorialized its decision to include the special organizational conflict of interest
provision. Specifically, the contract file contained a memorandum which included the
following information:

    •   A law firm whose loyalties lie with the utility companies might urge a less
        thorough process that could conclude earlier, when the Department's best interests
        lie with a careful approach that may indeed take longer and be a more expensive
        process;

    •   Lawyers for the utilities might seek discovery from the Department and its
        licensing support contractor, thus seeking discovery from themselves; and,

    •   The Department should not place itself in the position of being challenged by
        third parties based on the license application being improperly influenced, directly
        or indirectly, by interests of the utility companies that were party to the litigation.

An excluded law firm protested the terms of the solicitation as unduly restrictive. In
response, a Departmental Head of Contracting Activity (HCA) upheld the special
organizational conflict of interest provision and denied the protest. The HCA stated that
although the utilities and the Department both had an interest in having the license for the
Yucca Mountain repository issued quickly, the Department also served a broader interest
of protecting the environment and public health. According to the decision, this
difference created "a divergence in interests between the utilities and the DOE that gives
rise to the various potential conflicts of interest."

The Department's position was that it "is not willing to consider mitigation measures that
will not completely obviate the conflict when there are other parties available to perform

                                                2
the work"; and further, that this conflict could not be mitigated "simply by imposing a
firewall" for the protection of the agency's confidential information. The HCA, in his
decision, further stated that:

       . . . It must be recognized that this is a highly charged issue and thus one in
       which the public's perception should be taken into account. Given the
       public health and safety and environmental concerns about the repository,
       DOE cannot afford a public perception that its licensing decisions
       regarding the repository were influenced by a firm that owes loyalties to
       the nuclear utilities. Thus, after consideration, DOE retained the
       [organizational conflict of interest] provision that excludes those firms that
       are or recently were engaged in the [spent nuclear fuel] litigation against
       the DOE.

During the course of the contract performance period, the law firm selected for the 1999
procurement faced allegations of possible conflict of interest disclosure violations. In
response to the concerns raised, the Office of Inspector General initiated an inquiry of the
allegations, and issued a report on November 13, 2001. On November 29, 2001, the
Department and the firm mutually agreed to discontinue the contract.

                                     2003 Procurement

The Department modified its approach to awarding and handling potential conflicts of
interest related to the spent nuclear fuel litigation in its 2003 procurement. It awarded the
$63 million contract using an "other than competitive" procurement process. The
Department notified Congress of its intent to follow this process pursuant to 41 U.S.C.
Section 253(c)(7). The agency conducted market research and identified 18 prospective
law firms with litigation and NRC experience that could be considered for the contract.
The Department invited these firms, some of which represented utilities in the spent
nuclear fuel litigation, and others which did not, to participate. The respondents were
required to disclose any potential conflicts of interest. Department officials informed us
that they required firms involved in the spent nuclear fuel litigation to provide written
information and attend meetings relating exclusively to conflicts before determining that
it would be permissible to consider such firms.

As part of the selection process, the Department considered firms with complex
administrative litigation experience and NRC expertise. Since the NRC had not licensed
a new reactor for over 30 years, the Department did not consider a firm's NRC licensing
experience as a prerequisite for the contract – even though NRC experience was a criteria
in the preceding (1999) and subsequent (2007) legal services contracts. Ultimately, the
agency selected a law firm with extensive litigation experience, but one that did not have
conflicts of interest related to the spent nuclear fuel litigation. During our review,
Department officials indicated that they had considered the absence of such a conflict a
key factor in their selection of the firm.




                                              3
                                     2007 Procurement

In 2007, the Department determined that, given the scope and magnitude of the legal
work associated with the Yucca Mountain Project, it required the services of an
additional law firm with recent NRC licensing experience to focus exclusively on its
license application. Following the same process as in 2003, the Department used the
informal, "other than competitive" procurement approach to evaluate different law firms
for this contract. As an initial step in its procurement, the Department performed
research and identified law firms with NRC expertise and recent experience with
contested NRC proceedings, as well as litigation experience. According to Department
officials, they could only identify three law firms with these qualifications. The
Department held meetings with firms to explore in more detail, experience, expertise,
workload capabilities, and conflict of interest concerns.

Ultimately, the Department hired Morgan Lewis, despite the firm's representation of
utilities in the spent nuclear fuel litigation. Officials informed us that, for the 2007
procurement, the need for specialized legal services (a firm with NRC licensing
expertise) and the resulting limited pool of available firms with such expertise led to the
acceptance and mitigation of the conflict of interest related to representation of utilities in
the spent nuclear fuel litigation. The HCA determined that Morgan Lewis proposed a
"comprehensive mitigation plan that would mitigate any conflict to the maximum extent
practicable." Further, "in an abundance of caution," officials granted a waiver under the
applicable Federal Acquisition Regulations (FAR) provisions of any organizational
conflict of interest relating to Morgan Lewis' representation of utilities in the spent
nuclear fuel litigation. Officials also consented to representation under the District of
Columbia Bar Rules of Professional Conduct.

                  Change in Approach and Basis for Contractor Selection

We attempted to obtain a better understanding of key decision points underlying the
Department's 2007 procurement strategy and selection process. Specifically, we
attempted to determine the Department's rationale for its: (1) change in position from
1999 to 2003 and 2007 relating to conflicts of interest for the spent nuclear fuel litigation;
and, (2) selection of Morgan Lewis (based on a comparative analysis) for the 2007 legal
services contract. With reference to both points, we found that the procurement file and
related documentation were insufficient to provide an adequate explanation of the
Department's rationale on these matters.

We could not find a document or record that explained the Department's change in
position on conflicts of interest between 1999, 2003 and 2007, and none was provided to
us. Specifically, as part of its 2007 procurement, the Department did not address the
three critical factors (see page 2 of this report) that were raised in its 1999 decision to
include the special organizational conflict of interest provision as part of its procurement
strategy. Department officials told us that they did not develop a written record that
documented this process, and they stated that there is no requirement to document the
rationale for the different approaches. Officials stated that they thoroughly considered
conflicts of interest issues in 2003 and again in 2007. Given the significant controversy

                                               4
surrounding the project and allegations concerning conflicts of interest, in our judgment,
agency officials should have fully documented the relevance, importance, and
applicability of these factors as they related to the current procurement.

We also did not find a record of the Department's comparative analysis that formed the
basis for the selection of Morgan Lewis. Such a record would have been helpful given
that our independent review of publicly available information showed that one of the
firms invited to meet with Department officials to discuss their capabilities and proposed
approach to the Yucca Mountain licensing representation did not have a conflict of
interest related to the spent nuclear fuel litigation. This was confusing since the waiver
granted by the HCA stated that "any alternative law firm with NRC licensing expertise
would have similar potential conflict issues." Officials stated that the firm in question
was not considered an alternative law firm because it had significantly fewer attorneys
with NRC licensing experience than the Department was seeking. The Department's
selection of Morgan Lewis was presented in a "Chronology" to the file. Nonetheless, in
our view, the absence of a documented comparative analysis that formed the basis of
selection was problematic. The lack of documentation appeared to result from the
Department's use of the "other than competitive" procurement process.

CONFLICT OF INTEREST REGULATIONS AND RULES

The Department's contractual awards for legal services are subject to the organizational
conflict of interest provisions contained in the FAR, subpart 9.5, and in the Department
of Energy's Acquisition Regulations (DEAR), subparts 909.5 and 952. According to the
regulations, an organizational conflict of interest exists when a contractor's other
activities or relationships render the contractor unable or potentially unable, to render
impartial assistance, advice, or objectivity to the Government.

                                 Procurement Regulations

The regulations require that the Department analyze a planned procurement to identify
and evaluate potential conflicts of interest as early in the acquisition process as possible.
Specifically, the DEAR requires an apparent successful bidder to provide: "a statement of
any past (within the past 12 months), present, or currently planned financial, contractual,
organization, or other interests relating to the performance of the statement of work."

If an apparent successful bidder discloses a potential conflict of interest, the contracting
officer must seek to "avoid, neutralize, or mitigate significant potential conflicts before
contract award." The contract must be awarded to the apparent successful offeror unless
it is determined that a conflict of interest exists that cannot be avoided or mitigated. The
regulations require that the contracting officer exercise "common sense, good judgment,
and sound discretion" in deciding whether a significant potential conflict exists and, if so,
develop an appropriate means for resolving the conflict. If the contracting officer finds
that the contract award is in the best interest of the Government, notwithstanding the
conflict of interest, the contracting officer can request a waiver of the conflict of interest
to the agency head or designee.



                                              5
                                    Rules of Legal Ethics

The attorneys working under the Department's contract are also subject to Rule 1.7,
District of Columbia Bar Rules of Professional Conduct, since they were licensed in the
District of Columbia. This rule prohibits a lawyer from representing another client with
respect to a matter if: (1) the client's position is adverse to another client's position in the
same matter, even though that client is unrepresented or represented by a different lawyer
on that matter; (2) such representation will be or may be adversely affected by
representation of another client; or (3) representation of another client will be or may be
adversely affected by such representation. Under the rules, this conflict can be waived
after each potentially affected client is provided with full disclosure of the conflict and
the potential adverse consequences of such representation and provides consent.
However, a conflict cannot be waived if it involved representing adverse positions in the
"same matter."

APPLICATION OF REQUIREMENTS

The 2007 procurement for legal services related to the Yucca Mountain license
application appeared to follow the conflicts of interest requirements set forth in the FAR,
DEAR, and District of Columbia Bar Rules of Professional Conduct.

In accordance with the FAR and DEAR, the Department required Morgan Lewis to make
certain pre-award disclosures regarding potential conflicts of interest arising out of their
work. Specifically, the instructions included identifying, among others, the following
potential conflicts:

    •   Representing a plaintiff in the spent nuclear fuel litigation pending in the United
        States Court of Federal Claims;

    •   Representing any entity that could potentially benefit economically or otherwise
        as a result of licensing or failure to license a repository at Yucca Mountain; and,

    •   Representing any entity that could be potentially injured economically or
        otherwise as a result of licensing a repository at Yucca Mountain.

Morgan Lewis provided additional disclosures, prior to the award of the contract, some of
which extended beyond the required 12-month period.

As part of the acquisition process, the contracting officer required Morgan Lewis to
provide a plan to avoid or mitigate organizational conflicts of interest. The contracting
officer determined that the plan was comprehensive and would "mitigate any conflict to
the maximum extent practicable." Further, in accordance with the FAR, the contracting
officer requested a waiver of the organizational conflict of interest related to the firm's
representation of clients in the spent nuclear fuel litigation. According to the contracting
officer, a strong plan of disclosure, informed consent, and a comprehensive mitigation
plan provided adequate mitigation of any conflict arising out of the firm's representation
of utilities in the spent nuclear fuel litigation.

                                               6
Further, on September 26, 2007, "in an abundance of caution," the HCA granted the
contracting officer's request for a waiver of any organizational conflict of interest relating
to the firm's "representation of the identified entities in the [spent nuclear fuel] litigation
and/or litigation unrelated to the Yucca Mountain repository wherein [the firm]
represents entities in matters that are adverse to the Department." The HCA, in making
his decision, stated that:

       Due to the critical need for the legal services involving expertise in NRC
       licensing to assist the Department in the Yucca Mountain licensing
       proceeding, it is in the best interest of the United States to award this
       contract even if an organizational conflict of interest existed. Moreover,
       the Department determined that Morgan Lewis was the best choice to
       represent the Department in the Yucca Mountain licensing proceeding.
       Furthermore, any alternative law firm with NRC licensing expertise would
       have similar potential conflict issues, and Morgan Lewis has proposed a
       strong mitigation plan.

The Department also consented to Morgan Lewis' legal representation of the agency
under the District of Columbia Rules of Professional Conduct. Regarding the matters
that involved the spent nuclear fuel litigation, the Department granted a waiver based on
its view that:

       The overlap of subject matter (disposition of spent nuclear fuel) for the
       [spent nuclear fuel] litigation requires [Morgan Lewis] to undertake
       significant action to provide DOE with sufficient assurance that the
       conflict will not affect the quality of DOE's representation or the
       protection of DOE's interests. [Morgan Lewis] has agreed to undertake a
       comprehensive "Organizational Conflict of Interest Avoidance/Mitigation
       Plan" (mitigation plan) concerning the [spent nuclear fuel] litigation to
       ensure that the interests of DOE in each matter are protected.

The Department determined that if implemented as described, the plan would mitigate
any adverse effect to the agency in either the spent nuclear fuel litigation or the license
proceedings before the NRC.

IMPLEMENTATION OF MITIGATION PLAN

The Department incorporated Morgan Lewis' mitigation plan into the contract. Overall,
the mitigation plan provided that the firm would "implement screening procedures to
ensure personnel working on the [spent nuclear fuel] claims will be completely screened
off from access to any information related to licensing of the repository, and vice versa."
Specifically, the mitigation plan included three mechanisms related to screening. First,
the plan stipulated that selected teams of lawyers and support staff would work on the
Department's contract, and a separate group of personnel would work on the spent
nuclear fuel litigation. Second, the plan required that the file rooms for the Department's
contract would be physically separated from the firm's other work. Finally, the plan
provided that separate "security groups" would be established within the firm's computer
network that would restrict access to documents related to the Department's contract.
                                               7
As part of our review, we performed a site visit to Morgan Lewis' Washington, D.C.,
office in January 2008. We interviewed key personnel and observed the firm's
implementation of its mitigation plan in effect as of that date.

                                  Personnel Screening

We observed Morgan Lewis' screening procedures between the personnel assigned to the
Department's contract and personnel assigned to the spent nuclear fuel litigation.
Overall, we noted that personnel working on the Department's contract were separated,
both by organizational assignment and physical location, from the personnel working on
the spent nuclear fuel litigation. We raised questions regarding the mitigation plan's
screening of "lawyers and support staff." The firm's representatives acknowledged that
administrative support staff had not been included in the screening and were, in some
instances, shared among the segregated working groups. Subsequent to our site visit, the
firm's representative informed us that the mitigation plan related to the separation of
personnel was updated to include administrative staff.

                                  Access to Documents

Further, during our site visit, we noted that the documents related to the Department's
contract were stored in a separately designated and secured room. The documents were
labeled:

       Important Note: This file may not be viewed by [attorneys assigned to the
       spent nuclear fuel litigation] or any other members of the firm's
       professional or support staffs assigned to work on behalf of [the firm's
       spent nuclear fuel clients] in connection with claims against the United
       States Department of Energy involving the disposal of spent nuclear
       fuel….

                            Access to Electronic Documents

Finally, we observed Morgan Lewis' screening mechanism for access to electronic
documents. Specifically, documents related to the Department's contract were withheld
from the firm's "public" database and were placed in a "private" section of the database.
As of December 2007, a separate "security group" was created within the firm's computer
network that allowed access to documents related to the Department's contract only to
specified personnel authorized to work on those respective matters. For demonstration
purposes, a Morgan Lewis staff member who was not assigned to the Department's
contract attempted to gain access to the files, and the system did not reveal any records
related to the firm's work on the Department's contract.

WORK FOR THE NUCLEAR ENERGY INSTITUTE

The Nevada delegation also raised a concern that Morgan Lewis had a potential conflict
of interest as a result of its work for the Nuclear Energy Institute (NEI). The NEI is a
nuclear energy industry trade group, and its members include commercial utilities with

                                            8
spent nuclear fuel destined for Yucca Mountain. The NEI, with member participation,
also develops policy on key legislative and regulatory issues affecting the nuclear
industry.

To address a specific concern regarding Morgan Lewis' lobbying activities for NEI, we
reviewed the U.S. Senate Lobby Disclosure Act database and the U.S. House of
Representatives Lobbying Disclosure Filing Search as of January 23, 2008. An
examination of these sources indicated that Morgan Lewis terminated its registration as a
lobbyist for the NEI on July 9, 2002.

Morgan Lewis disclosed to the Department that it had periodically advised the NEI on
"matters involving the Nuclear Waste Policy Act, spent nuclear fuel, high-level waste,
and other related matters." Nonetheless, the firm asserted that "such work over the
twelve months [preceding the contract award] has not related factually, commercially or
legally to the Yucca Mountain Repository licensing." The firm also reported in its
disclosures that it was a member of the NEI.

To address possible conflicts of interest, the firm's pre-award disclosure and the
subsequent contract stated that the firm "will not perform any work, including being a
registered lobbyist, where such work for any organization or individual directly involves
matters factually, commercially, or legally related to the Yucca Mountain Repository
licensing."

We questioned responsible Department officials on this subject. Department officials
informed us that prior to the award of the contract, they held follow-up discussions with
Morgan Lewis to more fully develop the disclosures. As a result of these discussions, the
firm modified its disclosures, and provided additional clarification of its work on behalf
of NEI. Department officials informed us that, based on their discussions with Morgan
Lewis, they did not view the firm's work for NEI as a conflict, and therefore did not seek
a plan of mitigation or waiver.

However, the procurement file did not contain a "trail" of the Department's review of the
disclosures. Such a document would have allowed us to determine if the Department
adequately addressed whether the disclosed issues presented a conflict of interest and, if
so, whether they had been effectively mitigated.

PRIOR WORK – SAFETY CONSCIOUS WORK ENVIRONMENT

Concerns related to Morgan Lewis' prior work for the Department in 2001 were also
raised. The concerns were that the firm potentially:

    •   Looked past critical flaws in the Department's quality assurance program;

    •   Targeted a quality assurance official, who was subsequently dismissed; and,

    •   Was placed in a position of choosing between protecting itself, and ensuring that
        the Department's quality assurance deficiencies have been adequately addressed.

                                            9
To address these issues, we:

    •   Compared Morgan Lewis' 2001 scope of work with the 2007 scope of work;

    •   Reviewed Morgan Lewis' 2001 report on the Safety Conscious Work
        Environment;

    •   Reviewed the U.S. Department of Labor's (Labor) decision on the termination of
        a quality assurance senior official;

    •   Reviewed the NRC's license application requirements for a quality assurance
        program; and,

    •   Reviewed recent reports on the Department's quality assurance program.

                  2001 Report – Safety Conscious Work Environment

Our review of the prior work showed that Morgan Lewis was critical of the safety
conscious work environment in existence at Yucca Mountain at that time and its report
included recommendations for improvement. According to the 2001 scope of work, the
Department retained Morgan Lewis to, in part, assess and make recommendations
regarding its contractor's safety conscious work environment. The firm used the NRC's
policy statement Freedom of Employees in the Nuclear Industry to Raise Concerns
Without Fear of Retaliation, May 14, 1996, and nuclear industry safety conscious work
environment guidelines to perform its review. The NRC defined a safety conscious work
environment as one in which employees feel free to raise safety concerns, both to the
management and to the NRC, without fear of retaliation.

Morgan Lewis presented the results of its work in the document Safety Conscious Work
Environment Final Report, dated August 28, 2001. According to the report, senior
contractor management allowed an unhealthy safety conscious work environment within
the quality assurance organization and did not initiate an integrated, broader effort to
create a uniform set of expectations for the safety conscious work environment
throughout the project. The report further disclosed that past attempts to enhance the
work environment were ineffective and eroded employee confidence in management's
ability to make meaningful changes necessary to create a safety conscious work
environment consistent with NRC expectations. The report made a number of
recommendations to assist management in undertaking the initiative and setting the tone
for a safety conscious work environment.

                       Dismissal of A Quality Assurance Official

An analysis of Morgan Lewis' 2001 report and related documentation showed that the
review addressed the role and activities of a quality assurance official working for a
contractor on the Yucca Mountain Project. Specifically, the Department tasked Morgan
Lewis to investigate certain allegations related to actions taken by a quality assurance
official. In addition to its findings on the overall safety conscious work environment,
Morgan Lewis found that this official had abused his authority in a number of respects.
                                               10
According to the report, interviews with employees disclosed that the official had
retaliated against an individual, and that this abuse contributed to the safety conscious
work environment's problems. Following the report's release, the senior official was
terminated.

                              Department of Labor Decision

The terminated employee protested the termination and appealed the decision to the
Department of Labor. The Labor regional administrator was critical that the employer
based the termination on the Morgan Lewis report and stated that the report had:

   Insufficient verifiable and credible evidence in it to conclude that it is not more
   than a sophisticated recitation of anonymous charges designed to provide
   pretextual reasons to support an already decided upon course of action to
   terminate [the employee].

The regional administrator found that the termination violated the employee's protected
activities under the Energy Reorganization Act. In addition, the regional administrator
stated that the: (1) employer did not complete an independent onsite investigation,
(2) employee was not provided a final copy of the report, or (3) employee was not
provided an opportunity to rebut the charges or appeal the termination.

                           Status of Quality Assurance Program

During our review, officials noted that there had been significant evolution of the quality
assurance program for the Yucca Mountain Project since 2001, and the current program
had been reviewed by independent parties and was found to be generally competent. We
reviewed the record of reports on the quality assurance program for Yucca Mountain. As
far back as 2005, the Office of Inspector General reported on quality assurance
challenges at the project (see Appendix 2). However, according to the Government
Accountability Office, as of 2007, the Department made progress in implementing the
quality assurance recommendations made in its March 2006 report. The report cautioned
that some of the recommendations would take several years to resolve. Further, an
October 2007 review performed by a contractor noted that the Department's quality
assurance program saw significant improvements and successes in correcting historical
quality-related problems. The results of the review deemed the existing quality assurance
program as being implemented consistent with standard nuclear industry practices.

                               Consideration of 2001 Work

Morgan Lewis included its 2001 work in its pre-award disclosures for the 2007 contract.
We interviewed Department officials regarding the firm's 2001 work, and officials stated
that the quality of the firm's work was acceptable. According to Department officials,
Morgan Lewis will not be placed in a position of defending or protecting its prior work as
part of its current contract requirements.




                                             11
                                     APPENDIX 1

                  OBJECTIVE, SCOPE, AND METHODOLOGY


OBJECTIVE

The objective of our review was to examine the Department of Energy's (Department)
award and administration of its September 2007 contract for legal services with Morgan,
Lewis, and Bockius LLP (Morgan Lewis).

SCOPE

The review was performed from December 2007 through March 2008 at the
Department's Headquarters in Washington, D.C. In particular, the review examined the
procurement of the contract and the internal controls established by the Department and
Morgan Lewis to mitigate conflicts of interest.

METHODOLOGY

To assess the Department's award and administration of its September 2007 contract for
legal services, we:

   •   Compared the Department's procurement strategy for its 1999 and 2003 legal
       services contracts with the procurement strategy for the 2007 contract;

   •   Determined the applicable laws and regulations related to organizational conflicts
       of interest;

   •   Reviewed the procurement files for the 2007 contract;

   •   Reviewed Morgan Lewis' plan for mitigating potential conflicts of interest;

   •   Performed a site visit to Morgan Lewis' Washington, D.C., office and interviewed
       key personnel and observed aspects of the implementation of the mitigation plan
       as of January 2008;

   •   Analyzed invoices of time charges submitted to the Department as of November 26,
       2007;

   •   Reviewed Morgan Lewis' disclosures related to its work for the Nuclear Energy
       Institute;

   •   Searched the U.S. Senate Lobby Disclosure Act database and the United States
       House of Representatives Lobbying Disclosure Filing Search and determined
       Morgan Lewis' status as a lobbyist for the Nuclear Energy Institute;


                                           12
•   Reviewed Morgan Lewis' 2001 work for the Department and compared it to the
    2007 scope of work; and,

•   Interviewed Department officials from the Office of General Counsel, Office of
    Procurement and Assistance Management, and the Office of Civilian Radioactive
    Waste Management.




                                      13
                                     APPENDIX 2

                                  PRIOR REPORTS


Office of Inspector General

   •   Review of Alleged Conflicts of Interest Involving a Legal Services Contract for the
       Yucca Mountain Project (DOE/IG-I01IG001, November 2001). The review
       found that a legal services contractor contemporaneously served as a registered
       lobbyist for the Nuclear Energy Institute while under contract for legal services
       for the Yucca Mountain Project and failed to disclose these lobbying activities to
       the Department of Energy (Department). The Office of Inspector General
       recommended an evaluation and determination as to whether the legal services
       contractor violated the terms of its contract or otherwise acted in a manner not in
       keeping with its professional ethical standards to the Department.

   •   Quality Assurance Weaknesses in the Review of Yucca Mountain Electronic Mail
       for Relevancy to the Licensing Process (DOE/IG-0708, November 2005). The
       review identified potential quality assurance issues that had not been entered into
       the Corrective Action Program. The Nuclear Regulatory Commission (NRC)
       process for granting a license for the repository required that the Department
       publicly disclose on a website all documents, including e-mails, relevant to the
       process. The review found that the process for examining the archived e-mails
       did not fully assure that quality assurance issues were promptly identified,
       investigated, reported and resolved. The Office of Inspector General
       recommended that the Department expand its quality assurance-related search
       effort to include a more comprehensive review of the archived e-mails.

   •   The Office of Civilian Radioactive Waste Management's Corrective Action
       Program (DOE/IG-0736, August 2006). The Corrective Action Program was not
       effectively managing and resolving conditions adverse to quality at the Yucca
       Mountain Project. Specifically, over 100 potential conditions were not being
       managed in the Corrective Action Program system, but should have been. Also,
       more than half of the most significant planned corrective actions had not been
       implemented in a timely manner. Finally, the report noted that conditions
       continued to recur even after management reported that appropriate corrective
       actions had been taken. Corrective Action Program officials did not always
       support employee participation in the process; make needed improvements to the
       system and procedures; review the effectiveness of corrective actions; and, utilize
       the system's trend analysis capabilities to identify repeat occurrences and generic
       issues. The Office of Inspector General made several recommendations to further
       assist management in ensuring that the Corrective Action Program meets its goals.

   •   Investigation of Allegations Involving False Statements and False Claims at the
       Yucca Mountain Project (DOE/IG Case No. I05LV002, April 25, 2006). The
       Office of Inspector General initiated a criminal investigation focusing on potential
       falsification of research data pertaining to computer modeling of "net water
                                           14
       infiltration" of the Yucca Mountain repository and false representation of
       compliance with Yucca Mountain's Quality Assurance requirements. The United
       States Attorney's office declined to pursue prosecution. Nonetheless, the actions
       of those involved – which have been described by observers as irresponsible and
       reckless – have had the effect of undermining public confidence in the quality of
       the science of the Yucca Mountain Project. Department of Energy program
       officials informed us that the Department initiated steps to remediate or replace
       certain work of the Geological Survey. This will be a costly, time-consuming
       process with significant impact on the Yucca Mountain Project. Yet, we believe
       that it is an unavoidable step if quality assurance concerns emanating from the
       e-mail episode are to be satisfactorily addressed.
Government Accountability Office
   •   Yucca Mountain – DOE Has Improved Its Quality Assurance Program, but
       Whether Its Application for a NRC License Will Be High Quality is Unclear
       (August 2007, GAO-07-1010). The Government Accountability Office (GAO)
       reported that the Department set the June 30, 2008 date for filing a repository
       license application with the NRC. However, it is unclear as to whether DOE's
       license application would be of sufficient quality to enable NRC to conduct a
       timely review. The GAO report also noted that the Department had made
       progress in resolving the quality assurance recommendations and challenges
       identified in its March 2006 report, including taking several important actions to
       change the organizational culture. No recommendations were made in this report.
   •   Yucca Mountain – Quality Assurance at DOE's Planned Nuclear Waste
       Repository Needs Increased Management Attention (March 2006, GAO-06-313).
       The GAO reported that the Department continued to face substantial quality
       assurance problems and other challenges that could further delay the license
       application process. In the report, GAO cited ineffective management tools in
       addressing these challenges. GAO recommended that the Department: reassess
       the coverage of their quality assurance management tools to ensure effective
       monitoring of issues, incorporate project wide trend analysis, establish quality
       guidelines for trend evaluations, develop consistent performance indicators, and,
       focus on the significance of monitored conditions.
   •   Yucca Mountain – Persistent Quality Assurance Problems Could Delay
       Repository Licensing and Operation (April 2004, GAO-04-460). GAO identified
       lingering quality problems with data, models, and software and continuing
       management weaknesses. The Department developed a corrective action plan in
       2002 to fix recurring problems with the data; however, GAO found that the plan
       lacked objective measurements and time frames for determining success. GAO
       recommended the Department revise the performance goals in the 2002 action
       plan to include quantifiable measures of the performance expected and time
       frames for achieving and maintaining this expected level of performance.
       Further, GAO recommended that the Department close the 2002 plan once
       sufficient evidence shows that the recurring quality assurance problems and
       management weaknesses that are causing them have been successfully corrected.


                                           15
                                                                    IG Report No. DOE/IG-0792

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the review would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
